BECKER GALLAGHER
Briefs

and

DONNA J. WOLF, J.D.
)ULIE

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 unbound and
40 copies of the foregoing Brief in Opposition in 19-99,
Northern Kentucky Area Development District v.
Danielle Snyder, were sent via Two Day Service to the
U.S. Supreme Court, and 3 copies were sent via Two
Day Service and e-mail to the following parties listed
below, this 7th day of October, 2019:
Jeffrey C. Manda
Adam Stepner Woltermann & Dusing
40 West Pike Street
Covington, KY 41011
(859) 394-6200
jmando@aswdlaw.com

Counsel for Petitioner
Shane C. Sidebottom
Counsel of Record
Ziegler & Schneider, P.S.C.
541 Buttermilk Pike, Suite 500
Covington, Kentucky 41017
(859)-426-1300
sside bottom@zslaw .com

Counsel for Respondent
Danielle Snyder

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

A.

KERSHNER, J.D.

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on October 7, 2019.

Becker Gallagher Legal Pu · 1shing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary P
[seal]

